No. ____________

IN THE

DEAN PHILLIP CARTER,
Petitioner,
v.
RON BROOMFIELD,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Federal Public Defender
MICHAEL D. WEINSTEIN*
CELESTE BACCHI
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-7526
Facsimile: (213) 894-1102
Michael_Weinstein@fd.org
Attorneys for Petitioner
DEAN PHILLIP CARTER
*Counsel of Record

The petitioner-appellant, Dean Phillip Carter, requests leave, under Rule
39.1 of the Rules of the Supreme Court of the United States, to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the Ninth
Circuit without prepayment of costs and to proceed in forma pauperis.
The attached petition arises from two different death judgments, one from
Los Angeles County and the other from San Diego County. Carter filed petitions for
writs of habeas corpus in the United States District Courts for the Central District
of California and the Southern District of California. Both district courts granted
him leave to proceed in forma pauperis in his federal habeas corpus proceedings and
appointed the Office of the Federal Public Defender (FPD) to represent him under
the authority of 18 U.S.C. § 3599 and the Criminal Justice Act of 1964, 18 U.S.C.
§ 3006A(b). This appointment continued on appeal to the Ninth Circuit. As an
indigent petitioner, 18 U.S.C. § 3006A(c) entitles Carter to representation at “every
stage of the proceedings,” including this one.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: November 6, 2020

By: /s/ Michael D. Weinstein
MICHAEL D. WEINSTEIN*
CELESTE BACCHI
Deputy Federal Public Defenders
Attorneys for Petitioner
DEAN PHILLIP CARTER
*Counsel of Record

1

